THE COMMONWEALTH OF MASSACHUSETTS
OFFICE OF THE ATTORNEY GENERAL
ONE ASHBURTON PLACE
BOSTON, MASSACHUSETTS 02108
(617) 727-2200
(617) 727-4765 TTY
www.mass.gov/ago
July 8, 2021
By Electronic Filing
Scott S. Harris, Esq.
Clerk of the Court
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543-0001
Re:

Project Veritas Action Fund v.
Rachael S. Rollins, in Her Official Capacity as
District Attorney for Suffolk County, Massachusetts,
No. 20-1598 – Request for Extension of Time

Dear Mr. Harris:
The Court has requested that the respondent, District Attorney Rachael S. Rollins, file a
brief in response to the petition for a writ of certiorari in the referenced case by August 5, 2021.
Pursuant to Supreme Court Rule 30.4, Ms. Rollins respectfully requests that her time to file such
a brief be extended by 60 days, to October 4, 2021.
This request is based on the need for additional time to prepare a helpful response to the
petition. While undersigned counsel will prioritize the matter, additional time is necessary due to
overlapping briefing deadlines; the considerable internal review of the brief that will precede its
filing; and the need to coordinate with multiple reviewers at a time of year when many will be
out of the office. Counsel for the petitioner has assented to the requested extension.
Thank you for your consideration.
Sincerely,

Eric A. Haskell
Assistant Attorney General
cc:

Benjamin Barr, Esq.

